U.S. Department of Justice
Office of the Solicitor General

Washington, D.C. 20530

September 5, 2019
Honorable Scott S. Harris
Clerk
Supreme Court of the United States
Washington, D.C. 20543
Re: Giovanni Montijo-Dominguez v. United States, No. 19-109
Dear Mr. Harris:
The petition for a writ of certiorari in the above-captioned case was filed on July 23, 2019.
The government’s response is now due, after one extension, on September 25, 2019. We
respectfully request, under Rule 30.4 of the Rules of this Court, a further extension of time to and
including October 25, 2019, within which to file a response.
This extension is necessary because the attorneys with principal responsibility for
preparation of the government’s response have been heavily engaged with the press of previously
assigned matters with proximate due dates.
Counsel for petitioner does not oppose this further extension.
Sincerely,

Noel J. Francisco
Solicitor General
cc:

See Attached Service List

19-0109
MONTIJO-DOMINGUEZ, GIOVANNI
USA

ILANA H. EISENSTEIN
DLA PIPER LLP
ONE LIBERTY PLACE
1650 MARKET STREET
SUITE 4900
PHILADELPHIA, PA 19103-7300
215-656-3351
ILANA.EISENSTEIN@DLAPIPER.COM
RACHEL A. HORTON
DLA PIPER LLP (US)
ONE LIBERTY PLACE
1650 MARKET STREET
SUITE 5000
PHILADELPHIA, PA 19103-7300
215-656-3307
RACHEL.HORTON@DLAPIPER.COM
MICHAEL B. KIMBERLY
MCDERMOTT, WILL & EMERY LLP
500 NORTH CAPITOL STREET, NW
WASHINGTON, DC 20001
202-756-8000
MKIMBERLY@MWE.COM
JOSHUA S. O'HARA
VERMONT ASSOCIATION OF CRIMINAL
DEFENSE LAWYERS
90 BEECH STREET
ESSEX JUNCTION, VT 05452
JOSH.OHARA@VERMONT.GOV

WENDY CURTIS PALEN
PALEN LAW OFFICES, LLP
PO BOX 156
GLENDO, WY 82213
307-735-4022

